UNITED STATES COURT OF APPEALS FOR THE SEVENTH CIRCUIT
Office of the Clerk
Phone: (312) 435-5850
www.ca7.uscourts. gov

Everett McKinley Dirksen United States Courthouse
Room 2722 - 219 S. Dearborn Street
Chicagor Illinois 60604

November 5,2020
Before
ILANA DIAMOND ROVNER, Circuit Judge
DIANE P. WOOD, Circuit Judge

No. 20-2219

ROBERT L. TATUM,
Plaintiff - Appellant
v.
THOMAS TRETTIN,
Defendant - Appellee

No. 20-2220

ROBERT L. TATUM,
Plaintiff - Appellant
v.
DECORIE SMITH and DESHAWN MCKINLEY,
Defendants - Appellees

No. 20-2222

ROBERT L. TATUM,
Plaintiff - Appellant
v.
SEAN HENDERSON, et aL,
Defendants - Appellees

mm

MB!

District Court No: 2:19-cv-01588-LA
Eastern District of Wisconsin
District Judge Lynn Adelman
9

ti\

ft

District Court No: 2:19-cv-01590-LA
Eastern District of Wisconsin
District Judge Lynn Adelman

!

P

Wm

&
$8$

'igfii

5?<r

m

f.

Page 2

Nos. 20-2219, et al.

ipx-

w*.

mm

Si

m

a

District Court No: 2:19-cv-01591-LA
Eastern District of Wisconsin
District Judge Lynn Adelman

Upon consideration of the REQUEST FOR APPELLANT'S "EN BANC" RE­
HEARING PETITION BE PROPERLY PUT TO A VOTE & DECIDED, filed on
November 4,2020, by the pro se appellant,
IT IS ORDERED that the motion for en banc reconsideration is DENIED.
Pursuant to 7th Circuit Operating Procedure 1(a)(2), the request for en banc
reconsideration has been considered by the same judges who acted on the motion
originally because no judge has requested that the motion be considered by the court en
banc. The clerk shall attach a copy of this court's operating procedures to appellant7s
copy of this order.
IT IS FURTHER ORDERED that these causes are DISMISSED for failure to
timely pay the required docketing fee.

form name: c7_FinalOrderWMandate(form ID: 137)

UNITED STATES COURT OF APPEALS FOR THE SEVENTH CIRCUIT
Office of the Qerk
Phone:(312)435-5850
www.ca7.uscourts.gov

Everett McKinley Diiksen United States Courthouse
Room 2722 - 219 S. Dearborn Street
Chicago, Illinois 60604

ORDER
October 5,2020
Before
ILANA DIAMOND ROVNER, Circuit Judge
DIANE P. WOOD, Circuit Judge

No. 20-2219

ROBERT L. TATUM,
Plaintiff - Appellant
v.
THOMAS TRETTIN,
Defendant - Appellee

No. 20-2220

ROBERT L. TATUM,
Plaintiff - Appellant
v.
DECORIE SMITH and DESHAWN MCKINLEY,
Defendants - Appellees

No. 20-2222

ROBERT L. TATUM,
Plaintiff - Appellant
v.
SEAN HENDERSON, et al.,
Defendants - Appellees

3ss
District Court Nos: 2:19-cv-01588-LA, 2:19-cv-01590-LA & 2:19-cv-01591-LA
Eastern District of Wisconsin
District Judge Lynn Adelman

App,8

Nos. 20-2219, etal.

Page 2

Upon consideration of the MOTION TO PUBLISH AN OPINION UNDER 7th
CIR. RULE 32.1 - AND/OR RECONSIDER RE: 9-17-2020 ORDER DENYING IN
FORMA PAUPERIS, filed on September 30,2020, by the pro se appellant,
IT IS ORDERED that the motion for reconsideration is DENIED. Appellant shall
pay the required filing fees within 14 days, or else these appeals will be dismissed for
failure to prosecute pursuant to Circuit Rule 3(b).

form name: c7_Order_3J(form ID: 177)

Case: 20-2219

Document: 6

Filed: 09/17/2020

Pages: 1

UNITED STATES COURT OF APPEALS FOR THE SEVENTH CIRCUIT

Office of the Clerk
Phone: {312)435-5850
www.ca7.uscourts.gov

Everett McKinley Dirksen United States Courthouse
Room 2722 - 219 S. Dearborn Street
Chicago, Illinois 60604

ORDER
September 17, 2020
Before
ILANA DIAMOND ROVNER, Circuit Judge
DIANE P. WOOD, Circuit Judge
ROBERT L. TATUM,
Plaintiff - Appellant
No. 20-2219

v.

THOMAS TRETTIN,
Defendant - Appellee
Originating Case Information:
District Court No: 2:19-cv-01588-LA
Eastern District of Wisconsin
District Judge Lynn Adelman
The following is before the court: FRAP 24(a)(5) MOTION FOR LEAVE TO APPEAL
IN FORMA PAUPERIS, filed on July 23, 2020, by pro se Appellant Robert L. Tatum.
Robert Tatum is not permitted to proceed in forma pauperis under 28 U.S.C. § 1915(g)
because, on three or more prior occasions, he brought an action that was dismissed on
the grounds that it was frivolous or failed to state a claim on which relief may be
granted. In this case, Tatum has not demonstrated imminent danger of a serious
physical injury pursuant to § 1915(g). See Taylor v. Watkins, 623 F.3d 483 (7th Cir. 2010);
Lewis v. Sullivan, 279 F.3d 526 (7th Cir. 2002). Accordingly,
IT IS ORDERED that the motion for leave to proceed on appeal in forma pauperis is
DENIED. See 28 U.S.C. § 1915(g). Tatum shall pay the required docketing fee within 14
days, or this appeal will be dismissed for failure to prosecute pursuant to Circuit Rule
3(b).
form name: c7_Order_3J(form ID: 177)

Case: 20-2220

Document: 6

Filed: 09/17/2020

Pages: 1

UNITED STATES COURT OF APPEALS FOR THE SEVENTH CIRCUIT

EverettMcKinley Dirksen United States Courthouse
Room 2722 - 219 S. Dearborn Street
Chicago, Illinois 60604

Office of the Clerk
Phone: (312) 435-5850
www.ca7.uscourts.gov

ORDER
September 17, 2020
Before
ILANA DIAMOND ROVNER, Circuit Judge
DIANE P. WOOD, Circuit Judge

No. 20-2220

ROBERT L. TATUM,
Plaintiff - Appellant
v.
DECORIE SMITH and DESHAWN MCKINLEY,
Defendants - Appellees

Originating Case Information:
District Court No: 2:19-cv-01590-LA
Eastern District of Wisconsin
District Judge Lynn Adelman

The following is before the court: FRAP 24(a)(5) MOTION FOR LEAVE TO
APPEAL IN FORMA PAUPERIS, filed on July 23, 2020, by the pro se appellant.
Robert Tatum is not permitted to proceed in forma pauperis under 28 U.S.C. §
1915(g) because, on three or more prior occasions, he brought an action that was
dismissed on the grounds that it was frivolous or failed to state a claim on which relief
may be granted. In this case, Tatum has not demonstrated imminent danger of a serious
physical injury pursuant to § 1915(g). See Taylor v. Watkins, 623 F.3d 483 (7th Cir. 2010);
Lewis v. Sullivan, 279 F.3d 526 (7th Cir. 2002). Accordingly,
IT IS ORDERED that the motion for leave to proceed on appeal in forma
pauperis is DENIED. See 28 U.S.C. § 1915(g). Tatum shall pay the required docketing
fee within 14 days, or this appeal will be dismissed for failure to prosecute pursuant to
Circuit Rule 3(b).
form name: c7_Order_3J(form ID: 177)

UNITED STATES COURT OF APPEALS FOR THE SEVENTH CIRCUIT

Office of the Gerk
Phone:(312)435-5850
www.ca7.uscourts.gov

EverettMcKinley Dirksen United States Courthouse
Room 2722 - 219 S. Dearborn Street
Chicago/ Illinois 60604

ORDER
September 17,2020
Before
ILANA DIAMOND ROVNER, Circuit Judge
DIANE P. WOOD, Circuit Judge
ROBERT L. TATUM,
Plaintiff - Appellant
No. 20-2222

v.
SEAN HENDERSON, et al.,
Defendants - Appellees

District Court No: 2:19-cv-01591-LA
Eastern District of Wisconsin
District Judge Lynn Adelman
The following is before the court: FRAP 24(a)(5) MOTION FOR LEAVE TO APPEAL IN
FORMA PAUPERIS, filed on July 23,2020, by pro se appellant.
Robert Tatum is not permitted to proceed in forma pauperis under 28 U.S.C. § 1915(g)
because, on three or more prior occasions, he brought an action that was dismissed on the
grounds that it was frivolous or failed to state a claim on which relief may be granted. In this
case, Tatum has not demonstrated imminent danger of a serious physical injury pursuant to
§ 1915(g). See Taylor v. Watkins, 623 F.3d 483 (7th Cir. 2010); Lewis v. Sullivan, 279 F.3d 526 (7th
Cir. 2002). Accordingly,
IT IS ORDERED that the motion for leave to proceed on appeal in forma pauperis is
DENIED. See 28 U.S.C. § 1915(g). Tatum shall pay the required docketing fee within 14 days,
or this appeal will be dismissed for failure to prosecute pursuant to Circuit Rule 3(b).
form name: c7_Order_3J(fonn ID: 177)

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF WISCONSIN
ROBERT L. TATUM,
Plaintiff,
Case No. 19-C-1588

v.
SGT. THOMAS TRETTIN,
Defendant.

ORDER
On June 8, 2020, I denied the plaintiffs request to proceed without prepaying the
filing fee, directed the plaintiff to remit the full filing fee to the Clerk of Court by June 25,
2020, and warned the plaintiff that failure to pay the filing fee by that date would result in
dismissal of this action. On June 25, 2020, the plaintiff filed a letter in which he requests
that I hold this matter in abeyance until a misconduct complaint he filed with the United
States Congress is resolved. However, the misconduct complaint could not affect the
outcome of this case, and therefore its pendency is not good cause for further delay.
Moreover, because the plaintiff has not paid the filing fee and states in his letter that he
cannot pay it, I will dismiss this action for failure to pay the filing fee.
Accordingly, IT IS ORDERED that this action is DISMISSED for failure to pay the
filing fee. The Clerk of Court shall enter judgment.
Dated at Milwaukee, Wisconsin, this 29th day of June, 2020.
s/Lvnn Adelman
LYNN ADELMAN
District Judge

Case 2:19-cv-01588-LA Filed 06/29/20 Page 1 of 1 Document 11

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF WISCONSIN
ROBERT L. TATUM,
Plaintiff,
Case No. 19-C-1590

v.
DECORIE SMITH, et al.,
Defendants.

ORDER
On June 8, 2020, I denied the plaintiffs request to proceed without prepaying the
filing fee, directed the plaintiff to remit the full filing fee to the Clerk of Court by June 25,
2020, and warned the plaintiff that failure to pay the filing fee by that date would result in
dismissal of this action. On June 25, 2020, the plaintiff filed a letter in which he requests
that I hold this matter in abeyance until a misconduct complaint he filed with the United
States Congress is resolved. However, the misconduct complaint could not affect the
outcome of this case, and therefore its pendency is not good cause for further delay.
Moreover, because the plaintiff has not paid the filing fee and states in his letter that he
cannot pay it, I will dismiss this action for failure to pay the filing fee.
Accordingly, IT IS ORDERED that this action is DISMISSED for failure to pay the
filing fee. The Clerk of Court shall enter judgment.
Dated at Milwaukee, Wisconsin, this 29th day of June, 2020.
s/Lvnn Adelman
LYNN ADELMAN
District Judge

Case 2:19-cv-01590-LA Filed 06/29/20 Page 1 of 1 Document 11

•* • ,

*• *1

, r-

'

\ I i

•. '■

r

■ •• . .h'o-: >

:

»•>

t *•

’ i

• •/

i

UNITED STATES DISTRICT COURT
EASTERN DISTRICT dF WISCONSIN
ROBERT L. TATUMj
Plaintiff,

?•

i

i

. f

.v

Case No. 19-C-1591

V.

!'

C.O. SEAN HENDERSON, et al.,
Defendants,

• •>

I •*•

DECISION AND ORDER
In 2011, while he was incarcerated, plaintiff Robert Tatum commenced an action
in this court that was docketed as case 11-C-1131. The case was assigned to Judge
Rudolph T. Randa, who permitted Tatum to proceed in forma pauperis uhder 28 U.S.C.
§ 1915.' In-the years that followed, the plaintiff incurred three “strikes” for purposes of
§ 1915(g), meaning" that 1he plaintiff trought three federal civil actions or appeals that
were dismissed as frivolous, malicious, of for failure*to state a'&laim upon which relief
. •

•"/.t

'i.v it

■■

i

may be granted. See Order of Feb. 21,2017 in Seventh Circuit Case No. 16-3974 (finding
that plaintiff had incurred three strikes). Thus, as of the date on which the plaintiff incurred
his third strike (February 12, 2016), the plaintiff lost the ability to bring an action or appeal
in a federal court without prepaying the filing fee unless he was under imminent danger
of serious physical injury.
In July 2016, case 11-C-1131 was reassigned to me. In an order dated February
15, 2019,1 determined that the plaintiff had improperly joined dozens of unrelated claims
against different parties, in violation of Federal Rule of Civil Procedure 20.1 severed some
of the misjoined claims into four separate actions. One of those actions is still pending as
Case No. 11 -C-1131. The present action is one of the actions that were created following

Case 2:19-cv-01591-LA Filed 06/08/20 Page 1 of 4 Document 9

the severance. Because it is a new action, the plaintiff must pay a separate filing fee. See
Taylor v. Brown, 787 F.3d 851,853 (7th Cir. 2015). After I assessed the fee, the plaintiff
filed a motion to proceed in forma pauperis. In this motion, the plaintiff recognizes that he
has incurred three strikes, but he contends that he should be allowed to proceed in forma
pauperis in this action even though he is not in imminent danger. He makes three
arguments: (1) that I should read an equitable exception into § 1915(g); (2) that § 1915(g)
is unconstitutional; and (3) that the courts that dismissed his prior actions or appeals as
frivolous or for failure to state a claim erred in doing so.
In his first argument, the plaintiff contends that because he had not incurred three
strikes in 2011, when he misjoined the claims in this action with those in Case 11 -C-1131
as a matter of equity he should be allowed to proceed in forma pauperis now. However,
to my knowledge, no court has recognized an equitable exception to § 1915(g). Moreover,
the statute itself lists one exception—for prisoners in imminent danger of serious physical
injury—and this implies that Congress did not intend to create others. But even if a court
could create an equitable exception to § 1915(g), I would not do so here. Section 1915(g)
contemplates that strikes incurred while a suit is pending can result in a plaintiffs losing
the ability to obtain pauper status during later stages of the suit, even if the suit was
commenced before three strikes were incurred. For example, a plaintiff who incurs a third
strike in one civil action while a separate suit is pending in the district court will lose the
ability to obtain pauper status in any future appeal from the district court’s orders in the
separate suit. This will be so even if the plaintiff was granted leave to proceed in forma
pauperis in the district court before he incurred the third strike. The circumstances of the
present case are equitably no different than the circumstances in my example. In both

2
Case 2:19-cv-01591-LA Filed 06/08/20 Page 2 of 4 Document 9

circumstances, strikes that were incurred while the original action was pending deprive
the plaintiff of the ability to obtain pauper status during later stages of the same case.
Accordingly, I will not make an equitable exception to § 1915(g) here.
Next, the plaintiff contends that the three strikes provision of § 1915(g) is
unconstitutional. However, the Seventh Circuit (along with every other circuit to have
addressed the question) has concluded that § 1915(g) is constitutional. See Lewis v.
Sullivan, 279 F.3d 526, 528 (7th Cir. 2002). Here, the plaintiff makes a constitutional
argument that was not explicitly addressed in Lewis or the other appellate cases, but the
argument does not achieve a different result. The plaintiff contends that, to the extent
§ 1915(g) requires a court to impose a strike when it dismisses a suit for failure to state a
claim upon which relief may be granted, rather than for being frivolous or malicious, it
“chills" plaintiffs from bringing suits that raise novel, or “close call,” legal issues. See ECF
No. 8 at 2. The plaintiff suggests that a prisoner’s fear of incurring a strike and later being
precluded from obtaining pauper status may discourage him from filing the novel suit. The
plaintiff contends that such a chilling effect would violate the First Amendment. However,
under the First Amendment, chilling principles protect speech, not lawsuits. See, e.g.,
Reno v. Am Civil Liberties Union, 521 U.S. 844, 871-72 (1997). Nothing in the First
Amendment suggests that Congress cannot pass a iaw. that causes a.prisoner to think,
twice before filing a lawsuit that, while not patently frivolous, nonetheless stands a good
chance of being dismissed for failure to state a claim. Notably, a litigant has no
constitutional entitlement to bring a lawsuit without prepaying the filing fee, and the three
strikes rule does not unconstitutionally burden a prisoner’s access to the courts. See
Lewis, 279 F.3d at 528-31. For these reasons, I conclude that § 1915(g) does not violate

3
Case 2:19-cv-01591-LA Filed 06/08/20 Page 3 of 4 Document 9

the Constitution by discouraging prisoners from bringing suits that, while not frivolous or
malicious, are likely to be dismissed for failure to state a claim.
Finally, the plaintiff argues that § 1915(g) should not apply to him because the
courts that dismissed the suits in which he incurred the strikes erred in dismissing those
suits. However, § 1915(g) does not authorize courts to entertain collateral attacks on
judgments in prior actions or appeals. See Hoffmann v. Pulido, 928 F.3d 1147,1150-51
(9th Cir. 2019). To the extent the plaintiff believes the courts made errors in dismissing
his prior cases or appeals, his remedy was to pursue whatever direct appeal rights he
had remaining at the time the errors were committed.
In short, the plaintiff has incurred three strikes for purposes of § 1915(g) and is not
in imminent danger of serious physical injury. Therefore, he cannot proceed in forma
pauperis in this action and must prepay the full filing fee.
Accordingly, IT IS ORDERED that the plaintiffs motion for leave to proceed without
prepayment of the filing fee (ECF No. 8) is DENIED.
IT IS FURTHER ORDERED that if the plaintiff does not pay the full filing fee to the
Clerk of Court on or before June 25,2020,1 will enter an order dismissing this action for
failure to pay the filing fee.
Dated at Milwaukee, Wisconsin, this 8th day of June, 2020.
s/Lvnn Adelman
LYNN ADELMAN
District Judge

4
Case 2:19-cv-01591-LA Filed 06/08/20 Page 4 of 4 Document 9

